APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________
No. 18-1012
_________
JERUD BUTLER,
Plaintiff-Appellant,
v.
BOARD OF COUNTY COMMISSIONERS FOR SAN MIGUEL
COUNTY; MIKE HORNER, IN HIS INDIVIDUAL CAPACITY;
KRISTL HOWARD, IN HER INDIVIDUAL CAPACITY,
Defendants-Appellees.
_________
Appeal from the United States District Court
for the District of Colorado
(D.C. No. 1:17-CV-00577-WYD-GPG)
_________
Filed: March 29, 2019
_________
Benjamin P. Meade (Nicholas W. Mayle and Damon
Davis with him on the briefs), Killian Davis Richter
& Mayle, PC, Grand Junction, Colorado, for PlaintiffAppellant.
Jeffrey L. Driscoll, Williams, Turner & Holmes, P.C.,
Grand Junction, Colorado, for Defendants-Appellees.
_________

2a
Before TYMKOVICH, Chief Judge, EBEL, and
LUCERO, Circuit Judges.
_________
EBEL, Circuit Judge.
_________
The First Amendment protects a government
employee’s speech (1) made as a citizen (2) on a
matter of public concern (3) if the employee’s right to
speak outweighs the government’s interest as an
employer in an efficient workplace. These are the
first three steps of the familiar five-part
Garcetti/Pickering analysis1 and they present legal
questions for a court to resolve. This appeal focuses
on the second inquiry, whether a public employee’s
speech is on a matter of public concern. Generally, a
matter of public concern relates to any matter of
political, social, or other concern to the community.
In order to determine whether speech is on a matter
of public concern, the Supreme Court has directed
that we consider the content, form and context of the
particular speech at issue in a given case.
Plaintiff-Appellant Jerud Butler is a government
employee, a supervisor for the San Miguel County,
Colorado, Road and Bridge Department. He alleges
that his supervisors violated his First Amendment
freedom of speech when they demoted him for
testifying truthfully in state court as a character
witness for his sister-in-law. The state-court
proceeding concerned a domestic child custody

1

Garcetti v. Ceballos, 547 U.S. 410 (2006); Pickering v. Bd. of
Educ. of Twp. High Sch. Dist. 205, 391 U.S. 563 (1968).

3a
dispute between Butler’s sister-in-law and her exhusband, who also works for the County’s Road and
Bridge Department.
The district court dismissed Butler’s First
Amendment claim with prejudice under Fed. R. Civ.
P. 12(b)(6), concluding at step two of the
Garcetti/Pickering analysis that Butler’s testimony
at the custody hearing, given as a private citizen,
was not on a matter of public concern. Having
jurisdiction under 28 U.S.C. § 1291, we AFFIRM. In
doing so, we reject Butler’s assertion that any
truthful sworn testimony given by a government
employee in court as a citizen is per se always a
matter of public concern. The rule Butler suggests,
and which several circuits have adopted, gives
dispositive weight to the form and context of a public
employee’s speech (sworn testimony in a judicial
proceeding), but fails to give any weight to the
content of that testimony. We, instead, employ a
case-by-case approach, considering whether, in this
particular case, the content of Butler’s testimony, as
well as its form and context, make it speech
involving a matter of public concern. After applying
such an analysis here, we conclude that Butler’s
testimony during the child custody proceeding was
not on a matter of public concern. Although Butler’s
testimony involved a matter of great significance to
the private parties involved in the proceeding, it did
not relate to any matter of political, social or other
concern of the larger community.
I. BACKGROUND
At the motion-to-dismiss stage, we accept as true
all of Butler’s well-pled factual allegations and view

4a
them in the light most favorable to him. See Straub
v. BNSF Ry. Co., 909 F.3d 1280, 1287 (10th Cir.
2018). Butler alleged the following: He works for the
San Miguel County Road and Bridge Department.
On September 1, 2016, the County promoted Butler
to a district supervisor position. Six days later, on
September 7, “Butler testified in a child custody
hearing in Montrose County . . . involving his sisterin-law and her ex-husband, who is also an employee
of the San Miguel County, Road and Bridge
Department.” (Aplt. App. 10 ¶ 15.) “Butler was asked
to testify as a character witness on behalf of his
sister-in-law”; he “would have been required to
testify pursuant to a subpoena had he not agreed to
testify . . . .” (Id. ¶¶ 16-17.) “At the hearing, Butler
was asked, among other things, about the hours of
operation for the San Miguel County Road and
Bridge Department.” (Id. ¶ 18.) He “responded
truthfully to the question based upon his own
personal knowledge.” (Id. ¶ 19.) “At the hearing,
Butler neither stated nor implied that he was
testifying on behalf of the County.” (Id. ¶ 20.)
Almost two weeks later, Mike Horner, who was San
Miguel County’s Road and Bridge Director, and
Kristl Howard, the County’s Human Resources
Director, “conducted an investigation into Butler’s
testimony at the hearing.” (Id. 10 ¶ 22.) “Following
the investigation, Horner and Howard gave Butler a
Written Reprimand and demotion.”2 (Id. ¶ 23.)

2

In addition to these facts that Butler alleged in his
complaint, Defendants also asked the district court, over
Butler’s objection, to consider facts contained in the written
reprimand that the County issued Butler. Butler had not

5a
Butler sued the two County directors who demoted
him, Horner and Howard, under 42 U.S.C. § 1983,
alleging that they violated Butler’s right to free
speech under the First and Fourteenth Amendments
by demoting him for testifying truthfully at the
custody hearing. See Janus v. Am. Fed’n of State,
Cty., & Mun. Employees, Council 31, 138 S. Ct. 2448,
2463 (2018) (noting First Amendment applies to
states through Fourteenth Amendment). Defendants
moved to dismiss this claim under Fed. R. Civ. P.
12(b)(6). The district court granted that motion,
ruling that Butler had failed to allege a First
Amendment violation because his triggering speech
was not on a matter of public concern, and the court
dismissed with prejudice Butler’s § 1983 claims
against the two individual Defendants. It is that
decision that Butler challenges on appeal.3

attached that document to his complaint and, although
Defendants asserted that they attached the written reprimand
to their motion to dismiss, it is not clear that they actually did
so. In any event, the district court declined to consider the
contents of the written reprimand when the court ruled on
Defendants’ motion to dismiss. Although on appeal both sides
cite to facts apparently contained in the reprimand, neither side
has provided us with a copy of the reprimand. Under these
circumstances, we also decline to consider it. We do not need to
consult the contents of the written reprimand, in any event, in
order to resolve this appeal because the reprimand’s contents
appear to pertain only to step three of the Garcetti/Pickering
test.
3

Butler also alleged a state-law claim against the County
Board of Commissioners under Colorado’s Lawful Off-Duty
Conduct Act, Colo. Rev. Stat. § 24-34-402.5. After dismissing
Butler’s § 1983 claim, the district court declined to exercise
supplemental jurisdiction over this state-law claim and

6a
II. DISCUSSION
We review de novo the district court’s decision to
grant Defendants’ Rule 12(b)(6) motion to dismiss
and in doing so we accept as true all well-pled factual
allegations, viewing those facts in the light most
favorable to Butler. See Straub, 909 F.3d at 1287.
“To withstand a motion to dismiss, a complaint must
contain enough allegations of fact ‘to state a claim to
relief that is plausible on its face.’” Id. (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
The individual Defendants, Horner and Howard,
sought dismissal of Butler’s First Amendment claim,
asserting they were each entitled to qualified
immunity. To overcome Defendants’ qualifiedimmunity defense, Butler had to allege that (1) the
individual
Defendants
violated
Butler’s
constitutional rights, and that (2) those rights were
clearly established at the time of the alleged
violation. See Pearson v. Callahan, 555 U.S. 223, 232
(2009); Doe v. Woodward, 912 F.3d 1278 (10th Cir.
2019). A court can consider these two inquiries in
any order. See Pearson, 555 U.S. at 236. In this case,
the district court granted Defendants’ motion to
dismiss at the first qualified-immunity inquiry,
holding Butler had failed to allege a First
Amendment violation.
In reaching that decision, the district court applied
the five-part Garcetti/Pickering analysis, which asks:
(1) whether the speech was made pursuant to
an employee’s official duties; (2) whether the
dismissed it without prejudice. Butler does not challenge that
ruling on appeal.

7a
speech was on a matter of public concern; (3)
whether the government’s interests, as
employer, in promoting the efficiency of the
public service are sufficient to outweigh the
plaintiff’s free speech interests; (4) whether
the protected speech was a motivating factor
in the adverse employment action; and (5)
whether the defendant would have reached
the same employment decision in the absence
of the protected conduct.
Bailey v. Indep. Sch. Dist. No. 69, 896 F.3d 1176,
1181 (10th Cir. 2018); see also Lane v. Franks, 573
U.S. 228, 236-37 (2014). “In general, the first three
prongs are legal issues to be decided by the court and
the last two prongs are factual issues left to the
factfinder.” Bailey, 896 F.3d at 1181.
In this case, Defendants conceded the first
Garcetti/Pickering inquiry, that Butler testified as a
private citizen, but moved to dismiss arguing that
Butler had failed to allege adequate facts to succeed
on either the second or third Garcetti/Pickering
inquiry. The district court granted the motion to
dismiss, ruling at the second Garcetti/Pickering step
that Butler had failed to allege that his testimony
was on a matter of public concern.
“Speech involves matters of public concern when it
can be fairly considered as relating to any matter of
political, social, or other concern to the community,
or when it is a subject of legitimate news interest;
that is, a subject of general interest and of value and
concern to the public.” Lane, 573 U.S. at 241
(internal quotation marks omitted); see also Bailey,
896 F.3d at 1181 (“Matters of public concern are

8a
issues of interest to the community, whether for
social, political, or other reasons.” (internal quotation
marks omitted)). For example, “[s]tatements
revealing official impropriety usually involve matters
of public concern.” Trant v. Oklahoma, 754 F.3d
1158, 1165 (10th Cir. 2014) (internal quotation
marks omitted); see also Eisenhour v. Weber Cty.,
744 F.3d 1220, 1228 (10th Cir. 2014) (“Speech
involves a public concern when the speaker intends
to bring to light actual or potential wrongdoing or
breach of public trust by a public official or to
disclose any evidence of corruption, impropriety, or
other malfeasance within a governmental entity.”
(internal quotation marks, alterations omitted)).
Speech aimed at “air[ing] grievances of a purely
personal nature” is generally not on a matter of
public concern. Lighton v. Univ. of Utah, 209 F.3d
1213, 1225 (10th Cir. 2000); see also Morris v. City of
Colo. Springs, 666 F.3d 654, 661 (10th Cir. 2012)
(“Speech relating to internal personnel disputes and
working conditions ordinarily” does not “address[ ]
matters of public concern.” (internal quotation
marks, alteration omitted)). “Courts construe ‘public
concern’ very narrowly.” Leverington v. City of Colo.
Springs, 643 F.3d 719, 727 (10th Cir. 2011) (internal
quotation marks omitted).
The Garcetti/Pickering analysis limits the First
Amendment protection of a government employee’s
speech to speech on matters of public concern—“the
core value of the Free Speech Clause of the First
Amendment,” Pickering, 391 U.S. at 573—in order
“to ensure that citizens are not deprived of
fundamental rights by virtue of working for the
government.” Connick v. Myers, 461 U.S. 138, 147

9a
(1983). This is not to suggest that the First
Amendment only protects speech on matters of
public concern. See id. But in the context of public
employment,
when a public employee speaks not as a citizen
upon matters of public concern, but instead as
an employee upon matters only of personal
interest,
absent
the
most
unusual
circumstances, a federal court is not the
appropriate forum in which to review the
wisdom of a personnel decision taken by a
public agency allegedly in reaction to the
employee’s behavior.
Id. “When employee expression cannot be fairly
considered as relating to any matter of political,
social, or other concern to the community,
government officials should enjoy wide latitude in
managing their offices, without intrusive oversight
by the judiciary in the name of the First
Amendment.” Id. at 146. “Perhaps the government
employer’s dismissal of the worker may not be fair,
but ordinary dismissals from government service
which violate no fixed tenure or applicable statute or
regulation are not subject to judicial review even if
the reasons for the dismissal are alleged to be
mistaken or unreasonable.” Id.; see also Garcetti, 547
U.S. at 418 (stating that if public employee did not
speak as a citizen on a matter of public concern, “the
employee has no First Amendment cause of action
based on his or her employer’s reaction to the
speech”).
On appeal, Butler asserts two reasons why the
district court erred in concluding that his testimony

10a
was not on a matter of public concern. First, he
argues that any sworn testimony given by a public
employee should per se always be a matter of public
concern. Secondly, he contends that even if we do not
adopt a per se rule, in this case his testimony was, in
fact, on a matter of public concern, based on the
state’s general interest in child welfare and fair
custody proceedings. We are not persuaded by either
argument.
A. We reject Butler’s argument that any sworn
testimony given by a public employee is per se
always a matter of public concern
Butler first argues for a sweeping per se
evidentiary rule that would treat any sworn
testimony given by a public employee in a judicial
proceeding as always a matter of public concern. We
reject such a per se rule because the Supreme Court
has, instead, mandated a case-by-case approach,
directing us to consider the content, form and context
of the testimony in light of the record as a whole in a
particular case.
1. The Supreme Court’s mandate
The Supreme Court has directed courts, “[i]n
assessing whether speech pertains to a matter of
public concern,” to “consider ‘the content, form, and
context of a given statement, as revealed by the
whole record.’” Bailey, 896 F.3d at 1181 (quoting
Connick, 461 U.S. at 147-48). We employ this caseby-case approach in determining whether any other
kind of public-employee speech is on a matter of
public concern. See id.; Nixon v. City & Cty. of
Denver, 784 F.3d 1364, 1367-69 (10th Cir. 2015).

11a
Specifically as to a government employee’s speech
in the form of sworn testimony given in a court
proceeding, the Supreme Court itself applied
Connick’s case-by-case approach in Lane v. Franks,
573 U.S. 228 (2014), to decide whether a public
employee’s truthful sworn testimony was on a matter
of public concern. The overall question presented in
Lane was whether the plaintiff, Edward Lane, a
public official at a community college, was fired for
testifying truthfully in criminal proceedings against
a former employee—a state representative—who
Lane had fired for collecting her paycheck but never
coming to work. Id. at 231-34. In deciding whether
Lane’s testimony was a matter of public concern, the
Court examined the content, form and context of the
particular testimony that Lane gave, concluding:
[t]he content of Lane’s testimony—corruption
in a public program and misuse of public
funds—obviously involves a matter of
significant public concern. See, e.g., Garcetti,
547 U.S., at 425 . . . (“Exposing governmental
inefficiency and misconduct is a matter of
considerable significance”). And the form and
context of the speech—sworn testimony in a
judicial proceeding—fortify that conclusion.
“Unlike speech in other contexts, testimony
under oath has the formality and gravity
necessary to remind the witness that his or
her statements will be the basis for official
governmental action, action that often affects
the rights and liberties of others.” United
States v. Alvarez, 567 U.S. [709, 721], . . .
(2012) (plurality opinion).
Lane, 573 U.S. at 241.

12a
In Lane, then, the Supreme Court applied the casespecific analysis that the Court previously set forth
in Connick, considering the content, form and
context of a public-employee’s speech in order to
decide whether Lane’s sworn testimony in that case
was on a matter of public concern. Although Lane, in
considering the form and context of the government
employee’s speech, held that sworn testimony in a
judicial proceeding “fortifies” a matter-of-publicconcern finding, the Court did not declare that sworn
testimony in a judicial proceeding is per se a matter
of public concern. See Helget v. City of Hays, 844
F.3d 1216, 1228 (10th Cir. 2017) (Tymkovich, C.J.,
concurring). To the contrary, Lane addressed all the
underlying facts, including the particular subject
matter of the testimony at issue in determining
whether the public employee could maintain a cause
of action against his public employer for firing him.
We do not doubt that often a government employee’s
court testimony, even though given as a private
citizen, will involve matters of public concern. Even
so, Lane indicates that we must consider the content
of that testimony before determining whether it is, in
a given case, on a matter of public concern. Lane
establishes that, while the fact that the speech at
issue is sworn testimony given in a judicial
proceeding is a factor to consider, that fact is not
alone dispositive and, thus, a per se rule to that
effect is inappropriate.
Following Lane’s analytical framework leads us to
familiar territory. Applying Connick’s case-by-case
consideration of the content, form, and context is
how we usually decide whether other types of
government-employee speech address a matter of

13a
public concern. For example, in Bailey, this court had
to determine whether “a letter written by a public
employee, seeking a reduced sentence for his
relative,” was “speech on a matter of public concern.”
896 F.3d at 1179. In making that determination, we
“consider[ed] ‘the content, form, and context of a
given statement, as revealed by the whole record.”
Id. at 1181 (quoting Connick, 461 U.S. at 147-48); see
also Nixon, 784 F.3d at 1367-69 (considering these
same factors in determining whether statements a
police officer made were on a matter of public
concern).
2. The circuit split that developed prior to
Lane
Butler points out that, prior to Lane, the Fifth and
Third Circuits adopted a per se rule treating any
truthful sworn testimony given by a government
employee as always a matter of public concern. See
Johnston v. Harris Cty. Flood Control Dist., 869 F.2d
1565, 1578 (5th Cir. 1989) (holding, in case
addressing government employee’s testimony before
“County Commissioner’s Court” in support of fellow
employee’s EEOC complaint, that “[w]hen an
employee testifies before an official government
adjudicatory or fact-finding body he speaks in a
context that is inherently of public concern”); see also
Latessa v. N.J. Racing Comm’n, 113 F.3d 1313, 1319
(3d Cir. 1997) (stating Third Circuit has held “that a
public employee’s truthful testimony before a
government adjudicating or fact-finding body,
whether pursuant to subpoena or not, is a matter of
public interest” (citing Green v. Philadelphia

14a
Housing Auth., 105 F.3d 882, 887 (3d Cir. 1997)).4
These two circuits reasoned:
As a general rule, when a public employee
speaks about matters that are of personal
interest only, the speech does not address
matters of public concern. Connick, 461 U.S. at
147 . . . . Under certain circumstances,
however, the context in which the employee
speaks may be sufficient to elevate the speech
to the level of public concern. . . .
When an employee testifies before an official
government adjudicatory or fact-finding body
he speaks in a context that is inherently of
public concern. Our judicial system is designed
to resolve disputes, to right wrongs. We
encourage uninhibited testimony, under
penalty of perjury, in an attempt to arrive at
the truth. We would compromise the integrity
of the judicial process if we tolerated state
retaliation for testimony that is damaging to
the state. If employers were free to retaliate
against employees who provide truthful, but
damaging, testimony about their employers,
they would force the employees to make a
4

After Lane, the Fifth Circuit reaffirmed its per se rule in an
unpublished decision. See Lumpkin v. Aransis Cty., 712 F.
App’x 350, 358 (5th Cir. 2017) (unpublished) (stating that Lane
did “not ‘unequivocally abrogate[]’” that circuit’s Johnston line
of cases holding that a public employee’s sworn testimony is per
se a matter of public concern). In light of that, and because
Lane did not expressly consider the possibility of a per se rule,
we go ahead and address the Third and Fifth Circuits’ per se
rule, even though we have already concluded that the Supreme
Court’s cases, Connick and Lane, are dispositive here.

15a
difficult choice. Employees either could testify
truthfully and lose their jobs or could lie to the
tribunal and protect their job security. . . .
Thus, a grand jury witness speaks on matters
of public concern when he furnishes truthful
information to the grand jury on a matter that
the grand jury properly is investigating.
Likewise, when one state employee testifies in
another employee’s civil action against their
mutual state employer, the witness’s
testimony constitutes a matter of public
concern for First Amendment purposes. The
goal of grand jury proceedings, of criminal
trials, and of civil trials is to resolve a dispute
by gathering the facts and arriving at the
truth, a goal sufficiently important to render
testimony given in these contexts speech “of
public concern.”
Johnston, 869 F.2d at 1577-78 (citations, internal
quotation marks omitted); see also Green, 105 F.3d
at 886-87.
Although
Johnston’s
examples
include
circumstances that would frequently involve
testimony relating to matters of public concern even
without a per se rule— testimony about government
employers or matters being investigated by a grand
jury—these circuits have also applied this per se rule
to testimony that is less obviously about matters of
public concern. For example, the Third Circuit
applied its per se rule to hold that a government
employee called by her boss’s wife to testify as a
character witness for the wife in a divorce proceeding
was engaged in speech of a public concern, even
though she was called to testify in “a purely private

16a
matter.” Pro v. Donatucci, 81 F.3d 1283, 1285, 128791 (3d Cir. 1996) (relying on Fifth Circuit cases).
In adopting a per se rule, the Third and Fifth
Circuits focus on the form (sworn testimony) and
context (speech before a government adjudicatory or
fact-finding body) of the government employee’s
speech, to the exclusion of its content, concluding
that “the context of a courtroom appearance raises
speech to a level of public concern, regardless of its
content,” Green, 105 F.3d at 887. But such an
approach contradicts the Supreme Court’s directive
in Connick that we consider all three factors—
content, form and context—before deciding, on a
case-by-case basis, whether a government employee’s
speech in a given case is on a matter of public
concern.
In light of that, other circuits, even before Lane,
declined to adopt a per se rule that always treats a
government employee’s truthful sworn testimony as
a matter of public concern. The Seventh Circuit
explained:
Drawing on Fifth Circuit cases, [Plaintiff]
suggests that we ought to conclude that an
employee who testifies before an official
government adjudicatory or fact-finding body
speaks in a context that is inherently of public
concern. See Johnston v. Harris County Flood
Control Dist., 869 F.2d 1565, 1578 (5th
Cir.1989) (citations omitted). Although we
share our colleagues’ concern for the integrity
of the judicial process, our cases have rejected
a blanket rule according absolute First
Amendment protection to communications

17a
made in the course of a lawsuit. Such a rule
would contravene both the rationale of
[Supreme Court] cases like Connick and
Pickering that public employee speech is
protected against employer retaliation only if
it addresses matters of public concern and the
premise of McDonald v. Smith, 472 U.S. 479,
484–85 . . . (1985), that there is no sound basis
for granting greater constitutional protection
to statements made under the Petition Clause
than to other run-of-the-mill speech or
expression. In short, airing private gripes in
the form of a complaint or testimony cannot
alter their status as private gripes.
Wright v. Ill. Dep’t of Children & Family Servs., 40
F.3d 1492, 1505 (7th Cir. 1994) (citations omitted);
see Padilla v. S. Harrison R-II Sch. Dist., 181 F.3d
992, 996-97 (8th Cir. 1999) (declining to apply the
Fifth Circuit’s per se rule; holding teacher’s
testimony about propriety of a hypothetical sexual
relationship between a teacher and a student was
not a matter of public concern); see also Maggio v.
Sipple, 211 F.3d 1346, 1351-54 (11th Cir. 2000)
(considering form of speech (testimony during nonpublic grievance hearing), and its context and
content (testimony given in support of supervisor’s
“private grievance,” which did not involve
government fraud or corruption), in determining that
plaintiff’s testimony was not on a matter of public
concern); Arvinger v. Mayor & City Council, 862 F.2d
75, 76-79 (4th Cir. 1988) (reversing district court’s
decision that plaintiff’s statement “during a
coworker’s fair employment hearing that he did not
know whether . . . marijuana found in his van

18a
belonged to [his] coworker” was a matter of public
concern because in reaching that conclusion, district
court “improperly elevated context over content”).
These conflicting pre-Lane authorities bolster our
decision to reject a per se rule that would treat all
public employees’ sworn testimony as always a
matter of public concern. First and foremost, such a
rule contradicts the Supreme Court’s mandate, set
forth in Connick and applied in Lane, that we decide
whether speech is on a matter of public concern on a
case-by-case basis, considering the content, form and
context of the speech in a given case, on the record as
a whole. In addition, although we, like the Seventh
Circuit, share the Fifth and Third Circuits’ concern
for maintaining the integrity of the truth-seeking
functions of courts, protecting the integrity of judicial
proceedings
is
not
the
purpose
of
the
Garcetti/Pickering analysis. That analysis, instead,
determines when the First Amendment protects a
public employee’s speech, as well as the public’s
interest in having well-informed views of public
employees contribute to our civic discourse. See
Garcetti, 547 U.S. at 419. There are any number of
other ways that courts protect the integrity of their
truth-seeking function, including subpoena and
contempt powers, cross-examination, and criminal
sanctions for perjury, without expanding the
essential task of Garcetti/Pickering.
Giving sworn testimony publicly in court often has
consequences, even for non-public employees.
Witnesses to crimes, witnesses to domestic abuse,
witnesses to serious torts or business fraud all can
encounter serious repercussions because of their
testimony. We, and our nation, salute the courage of

19a
such witnesses and recognize that our system of
justice depends on such witnesses of courage and
integrity. Society seeks to protect such witnesses in a
variety of ways, and for public employees testifying
as citizens about a matter of public concern,
Garcetti/Pickering affords such witnesses significant
First Amendment protection when their interest in
speaking outweighs their government employer’s
interest in an efficient workplace. But we cannot, nor
do we see the need to, apply that First Amendment
protection using per se rules that contradict the
Supreme Court’s mandate in Connick and Lane.
3. The Tenth Circuit did not adopt a per se
rule prior to Lane
For the first time on appeal, Butler contends that
this court has already joined the Fifth and Third
Circuits in adopting a per se rule treating all sworn
testimony by a government employee as a matter of
public concern.5 But it would be quite extraordinary
for this court to adopt a per se rule that directly
contradicts the Supreme Court’s mandate in Connick
and Lane for a case-by-case analysis. In fact, each of
the Tenth Circuit cases on which Butler relies was
decided before Lane and none expressed or adopted a
5

While usually “we will not consider issues raised for the first
time on appeal,” here Butler has “simply offer[ed] new legal
authority for the position he advanced before the district court.”
Schulenberg v. BNSF Ry. Co., 911 F.3d 1276, 1286 n.4 (10th
Cir. 2018) (alterations, internal quotation marks omitted); cf.
First W. Capital Mgmt. Co. v. Malamed, 874 F.3d 1136, 1145
(10th Cir. 2017) (noting this court has discretion “to determine
an issue raised for the first time on appeal if it is a pure matter
of law and its proper resolution is certain” (internal quotation
marks omitted)).

20a
per se rule. So, Butler cannot point to any Tenth
Circuit case, even before Lane, expressly adopting
the per se rule for which he now advocates.
Instead, Butler relies on language in some of our
earlier case law which he misconstrues to suggest a
per se rule. Butler specifically points to Melton v.
City of Oklahoma City, 879 F.2d 706, 711-12 (10th
Cir. 1989), overruled en banc on other grounds by,
928 F.2d 920, 922 (10th Cir. 1991), Langley v. Adams
County, 987 F.2d 1473, 1479 (10th Cir. 1993),
Worrell v. Henry, 219 F.3d 1197 (10th Cir. 2000),
and Lytle v. City of Haysville, 138 F.3d 857, 864 n.2
(10th Cir. 1998). 6 All of the language from these
cases on which Butler relies is to the same effect:
“The First Amendment protects the right to testify
truthfully at trial,” Melton, 879 F.2d at 714; see also
Langley 987 F.2d at 1479 (stating in dicta that “[t]he
‘First Amendment protects the right to testify
truthfully at trial’” (quoting Melton, 879 F.2d at
714)); Worrell, 219 F.3d at 1204-05 (stating generally
in dicta that “[i]n the last few decades, federal courts
have afforded additional protection to witnesses who
are employed by the government, concluding that
truthful testimony is protected by the First
Amendment and that a government employee may
not be fired or subjected to other adverse action as a
result of such testimony” (citing Melton, 879 F.2d at
714)); Lytle, 138 F.3d at 864 n.2 (stating in dicta that

6

Butler also relies on Gilchrist v. Citty, 71 F. App’x 1, 4 (10th
Cir. 2003) (unpublished), but, as an unpublished decision,
Gilchrist is not binding on our panel. See United States v.
Johnson, 911 F.3d 1062, 1071 (10th Cir. 2018) (citing Tenth Cir.
R. 32.1(A)).

21a
“[t]his circuit has concluded that a witness’s sworn
testimony in a court proceeding is entitled to
heightened protection under the First Amendment”
(citing Melton, 879 F.2d at 714)).
These general statements on which Butler relies
are unremarkable. Of course the First Amendment
protects sworn testimony as speech. But that
protection, like most constitutional protections, is not
absolute. See Virginia v. Black, 538 U.S. 343, 358
(2003) (stating that “[t]he protections afforded by the
First Amendment . . .are not absolute”); see also W.
Coast Hotel Co. v. Parrish, 300 U.S. 379, 391 (1937)
(stating that, while Fourteenth Amendment
prohibits deprivation of liberty without due process,
it “does not recognize an absolute and uncontrollable
liberty”); United States v. Cox, 906 F.3d 1170, 1184
(10th Cir. 2018) (noting Second Amendment “right to
keep and carry arms, like other constitutional
guaranties, has limits”). The whole point of the
Garcetti/Pickering balancing test is to determine
when and how the First Amendment protects a
public employee’s speech. See Worrell, 219 F.3d at
1205 (stating, in applying Pickering balancing test,
that “First Amendment protection of public
employees’ testimony is not absolute”). The problem
with deeming constitutional protections to be
absolute and without exception is determining what
happens when one absolute protection conflicts with
another absolute constitutional guarantee. Such a
potential conflict between absolutes counsels against
adopting a blanket, per se constitutional protection
and similarly, counsels against adopting a per se rule
here in applying the Garcetti/Pickering analysis to

22a
decide when the First Amendment protects a
government employee’s speech.
Interpreting the general language Butler cites from
our earlier, pre-Lane cases in such an absolute way
is, any event, contrary to the actual analyses this
court applied in those cases. In Melton, for example,
this court in fact applied a case-by-case analysis,
considering the content, form and context of the
testimony at issue, just as Connick required, before
concluding that the testimony at issue there was on a
matter of public concern. See 879 F.2d at 713-14. It
was not until Melton turned to the next step in the
Supreme Court’s Pickering analysis, balancing the
employee’s free speech interest with the government
employer’s interest in an efficient workplace, that
this court used the general language about the First
Amendment’s protection of sworn testimony. See
Melton, 879 F.2d at 713-14.
In our other published cases that followed Melton,
we used similar general language indicating that the
First Amendment protects testimony only in dicta; in
those cases, this court did not need to address
whether the testimony at issue was on a matter of
public concern because the parties agreed that it
was. See Worrell, 219 F.3d at 1204-067; Lytle, 138
F.3d at 864 n.2; Langley, 987 F.2d at 1479.

7

Butler contends that, while this portion of Worrell might be
dicta, later portions of Worrell that also relied upon the
statement that testifying truthfully is protected by the First
Amendment were not dicta. But those later portions of Worrell
addressed a different question, whether government defendants
that were not Worrell’s employer violated his First Amendment
rights. 219 F.3d at 1209-12. As to those claims against non-

23a
All of these cases, in any event, came before Lane,
and none addressed whether to adopt a per se rule
treating all truthful sworn testimony given by a
government employee in court as always a matter of
public concern. Moreover, later Tenth Circuit cases
recognize that this court has never expressly
considered whether to adopt a per se rule treating all
testimony by government employees as a matter of
public concern. See Deutsch v. Jordan, 618 F.3d
1093, 1099 n.1 (10th Cir. 2010) (recognizing circuit
split, indicating “[t]his circuit’s precedents have not
explicitly adopted a per se rule,” and declining to
address the question in that case); see also Helget,
844 F.3d at 1229 (Tymkovich, C.J., concurring)
(noting, after Lane, that neither the Supreme Court
nor the Tenth Circuit has adopted a per se rule
treating all testimony by a government employee as
a matter of public concern).

employers, Worrell had to show that (1) he engaged in activity
protected by the First Amendment, (2) the defendants’ actions
injured Worrell, and (3) the defendants’ actions were
substantially motivated by Worrell’s protected activity. Id. at
1212-13. It was in that context, in addressing whether Worrell
had engaged in protected activity, that Worrell stated that it is
clearly established that testifying truthfully is an activity
protected by the First Amendment. Id. at 1213, 1215. In that
analysis, it was unnecessary for us to decide whether Worrell’s
testimony was on a matter of public concern. And it bears
repeating that the First Amendment protection of sworn
testimony is not absolute.

24a
4. In conclusion: We reject Butler’s argument
for a per se rule and instead apply the caseby-case approach the Supreme Court
mandated in Connick and applied in Lane
We, therefore, decline to adopt the per se rule that
Butler seeks, which would automatically treat all
truthful sworn testimony by government employees
as always a matter of public concern, regardless of
its content. Instead, following the Supreme Court’s
mandate in Connick, as applied in Lane and a
majority of other circuits, we consider on a case-bycase basis the content, form, and context of a
government employee’s testimony at issue in a given
case in order to determine whether it involves a
matter of public concern.
B. Applying such a case-by-case approach here,
Butler failed to allege that his testimony
during the child custody hearing involved a
matter of public concern
Butler’s second argument is that, even if we decline
to adopt a per se rule for sworn testimony, as we
have, his testimony at the child custody proceeding
in this particular case was in fact on a matter of
public concern. Considering the content, form, and
context of that testimony, we disagree.
In considering the content, form, and context of a
government employee’s speech in prior cases, we
have noted that we “may consider the motive of the
speaker, and whether the speech merely deals with
personal disputes and grievances unrelated to the
public’s interests.” Bailey, 896 F.3d at 1181 (internal
quotation marks omitted). “[S]peech that exposes

25a
official impropriety generally involves matters of
public concern, while speech that simply airs
grievances of a purely personal nature typically does
not.” Nixon, 784 F.3d at 1367-68 (internal quotation
marks omitted).
Like the Supreme Court in Lane, we conclude in
this case that the form and context of Butler’s
speech—sworn testimony in a court proceeding—
weigh in favor of treating it as a matter of public
concern. See Lane, 573 U.S. at 2380 (stating that
“the form and context of the speech” at issue there—
“sworn testimony in a judicial proceeding—fortify”
the conclusion that Lane’s testimony about
“corruption in a public program and misuse of state
funds” was a matter of public concern).
However, as for the content of the speech, the
complaint does not tell us much about Butler’s
testimony. We know that he was testifying as a
character witness for his sister-in-law in a child
custody proceeding, which is a purely personal
dispute that certainly has great significance for the
parties involved but is ordinarily not of general
interest to the community as a whole. We know
Butler testified, among other things, as to the
County Road and Bridge department’s hours of
operation, although we do not know what he said in
this regard. 8 This general topic, however, seems
quite uncontroversial; the hours of operation of the
County Road and Bridge Department is surely a
matter of public knowledge and appears to be a non8

Butler has never asserted that he could adequately plead
that his testimony was on a matter of public concern by
amending his complaint.

26a
controversial fact. While this testimony may have
been relevant to the custody determination
(particularly the availability of one of the parties to
discharge parenting duties to the child involved) it
does not bring this testimony on an otherwise
personal dispute into the realm of public concern. It
does not, for example, touch on any matter involving
impropriety or malfeasance of government officials.
It appears, instead, that Butler’s motive for
testifying was personal—to support his sister-in-law
and attest to her character in a custody dispute. See
Conaway v. Smith, 853 F.2d 789, 796 (10th Cir.
1988) (per curiam) (considering motive of speaker,
“i.e., whether the speech was calculated to disclose
misconduct or dealt with only personal disputes or
grievances with no relevance to the public
interests”).
Butler asserts that his testimony at a child custody
proceeding was a matter of public concern in light of
the State of Colorado’s concern for the welfare of
children and the fair resolution of child custody
matters. We accept that Colorado has a general
interest in these matters. But “[i]t is not sufficient
that the topic of the speech be of general interest to
the public; in addition, what is actually said must
meet the public concern threshold.” Nixon, 784 F.3d
at 1368 (internal quotation marks omitted). “A
statement does not attain the status of public
concern simply because its subject matter could, in
different circumstances, have been the topic of a
communication to the public that might be of general
interest.” Leverington, 643 F.3d at 727. Here, Butler
testified in support of his sister-in-law during a
personal dispute with her ex-husband over the

27a
custody of their child, regarding both the sister-inlaw’s character and the hours of operation for the
County’s Road and Bridge Department. There is no
indication that this testimony was of interest or
concern to the community at large.
Contrast Butler’s testimony with the testimony at
issue in the Seventh Circuit’s decision in Wright, 40
F.3d at 1505-06, a case on which Butler relies.
Wright held that the specific government-employee
testimony at issue in that case, given in a child
custody proceeding, was speech on a matter of public
concern. 40 F.3d at 1502, 1505. But Wright did not
hold, as Butler appears to assert, that any testimony
given in any child custody hearing is a matter of
public concern. Instead, Wright held that a social
worker’s report and testimony regarding “her version
of the procedural and substantive shortcomings of
the Department’s official investigation of the case”
was a matter of public concern as it pertained to “the
State’s methods of investigating an allegation of
child abuse,” as it addresses serious systemic
deficiencies in the operation of a public department.
Id. That testimony is much different than Butler’s
testimony here, speaking to the character of his
sister-in-law and stating the hours of operation of
the County’s Road and Bridge Department. After
considering the content, form, and context of Butler’s
testimony at issue here, we agree with the district
court that it was not on a matter of public concern.
III. CONCLUSION
For the foregoing reasons, then, we decline to adopt
a per se rule that all truthful testimony given by a
government employee is always a matter of public

28a
concern. We instead apply the case-by-case approach
mandated by the Supreme Court, considering the
content, form, and context of the specific testimony
by a government employee at issue in a given case.
Applying that approach here, we conclude Butler’s
specific testimony as a character witness for his
sister-in-law during a child custody hearing was not
a matter of public concern. Therefore, we AFFIRM
the district court’s dismissal of Butler’s § 1983 claims
against the two individual defendants, Horner and
Howard.

29a
18-1012, Butler v. Board of County Commissioners
LUCERO, J., dissenting.
I respectfully dissent.
Shortly after his promotion to a position as District
Supervisor for the San Miguel County Road and
Bridge Department, Jerud Butler was demoted for
providing truthful testimony in a judicial proceeding.
He had testified as a character witness in a child
custody matter, and answered truthfully a question
about the Department’s hours of operation. The
proceedings involved a child of his sister-in-law and
her ex-husband, a fellow employee of the
Department. Had Butler not testified willingly, he
would have been compelled to do so through
subpoena. Butler testified in his personal capacity
and on his own time. For having thus testified,
Butler was demoted and reprimanded in writing.
My respected colleagues conclude that the First
Amendment does not protect Butler’s testimony
because his speech did not raise a matter of public
concern. They incorrectly interpret Lane v. Franks,
573 U.S. 228 (2014), to hold that a supervisor does
not violate an employee’s First Amendment rights by
retaliating against that employee for providing
truthful testimony in a child custody proceeding.
Neither Lane nor any other case the majority cites
carries that muddy water. Accordingly, I do not join
the majority’s application of the “content, form, and
context” analysis required by Lane and cases that
precede it. See Connick v. Myers, 461 U.S. 138, 147
(1983).

30a
My colleagues recognize the form and context of
Butler’s speech in a judicial proceeding “weigh in
favor of treating it as a matter of public concern,”
(Majority Op. 22), yet proceed to engage in a myopic
analysis of the content alone to declare the speech
was not a matter of public concern. This exclusive
focus on content violates the very Supreme Court
mandate the majority claims to honor in rejecting a
per se rule. See Snyder v. Phelps, 562 U.S. 443, 454
(2011) (“In considering content, form, and context, no
factor is dispositive, and it is necessary to evaluate
all the circumstances of the speech, including what
was said, where it was said, and how it was said.”).
It is difficult for me to accept the proposition that
society’s concern in the custody of a child can be as
personal as the majority pronounces. To be sure,
participants in the proceeding may have personal
concerns regarding the custody of a child, but the
overarching public interest in the well-being of
children cannot be so easily ignored. “Merely because
speech concerns an issue of personal importance does
not preclude its treatment as a public matter.” Bailey
v. Indep. Sch. Dist. No. 69, 896 F.3d 1176, 1182 (10th
Cir. 2018). Although the custody of a child is partly
personal in nature, it is at its root a societal and
public issue.
I would hold that Butler’s testimony was on a
matter of public concern. Further, I would hold that
Butler’s First Amendment right to testify in a child
custody proceeding without suffering employer
retaliation was clearly established. Lane explained
that “the form and context of . . . speech—sworn
testimony in a judicial proceeding—fortify th[e]
conclusion” that such speech is a matter of public

31a
concern. 573 U.S. at 236-37. Moreover, the Colorado
General Assembly’s pronouncements on the
importance of child welfare in divorce proceedings
render obvious the fact that child custody disputes
are matters of public concern.
I
“Matters of public concern are issues of interest to
the community, whether for social, political, or other
reasons.” Bailey, 896 F.3d at 1181 (quotation
omitted). “The inquiry turns on the content, form,
and context of the speech.” Lane, 573 U.S. at 241
(quotation omitted). As noted above, “no factor is
dispositive, and it is necessary to evaluate all the
circumstances of the speech.” Snyder, 562 U.S. at
454.
There can be no question that the form and context
of in-court testimony establish a significant
presumption that the speech raises matters of public
concern. As explained by the Supreme Court in Lane,
the form and context of “sworn testimony in a
judicial proceeding” should “fortify th[e] conclusion”
that it involves “a matter of significant public
concern.” Id. at 236-37. “Unlike speech in other
contexts, testimony under oath has the formality and
gravity necessary to remind the witness that his or
her statements will be the basis for official
governmental action, action that often affects the
rights and liberties of others.” Id. (quotation
omitted). Not unlike sentencing hearings, which we
have held invoke matters of public concern, child
custody proceedings “are funded by the public, and
take place, at least theoretically, within the public

32a
eye as matters of public record.” Bailey, 896 F.3d at
1181.
Integrity of our judicial process depends upon
witnesses’ willingness to provide truthful testimony.
I would be far more reluctant than my colleagues to
hold that this case presents an exceedingly rare
instance in which testimony in judicial proceedings
does not raise a matter of public concern. A
fundamental tenet of due process is the right to call,
confront, and cross examine witnesses. See Green v.
Phila. Hous. Auth., 105 F.3d 882, 887 (3d Cir. 1997)
(“The utility of uninhibited testimony and the
integrity of the judicial process would be damaged if
we were to permit unchecked retaliation for
appearance and truthful testimony at such
proceedings.”). As the Fifth Circuit explained, “[t]he
goal of grand jury proceedings, of criminal trials, and
of civil trials is to resolve a dispute by gathering the
facts and arriving at the truth, a goal sufficiently
important to render testimony given in these
contexts speech of public concern.” Johnston v.
Harris Cty. Flood Control Dist., 869 F.2d 1565, 1578
(5th Cir. 1989) (quotation omitted). And the majority
cannot seriously dispute that the threat of employer
retaliation undermines a witness’ willingness to
testify, strengthening the presumption that we treat
such speech as raising a matter of public concern.1

1

The majority states that courts may “protect the integrity of
their truth-seeking function” in other ways, “including
subpoena and contempt powers, cross-examination, and
criminal sanctions for perjury.” (Majority Op. 16.) But Butler in
this case testified under the threat of a later subpoena. And the
threat of criminal sanctions for perjury, like hypothetical cross-

33a
The majority does not cite a single case from this
circuit in which sworn testimony in judicial
proceedings is so personal in nature as to overwhelm
the strong presumption, created by both the form
and context of the speech, towards treating such
speech as involving matters of public concern. See
Bailey, 896 F.3d at 1181-82 (holding character letters
submitted in a sentencing proceeding implicated
public concerns); Deutsch v. Jordan, 618 F.3d 1093,
1100 (10th Cir. 2010) (holding testimony responding
to a charge of public corruption was a matter of
public concern); Worrell v. Henry, 219 F.3d 1197,
1206 (10th Cir. 2000) (holding testimony of an
investigator in a criminal trial as a paid expert
raised a matter of public concern). Nor does it
identify any Supreme Court cases so holding. See
Lane, 573 U.S. at 241 (holding testimony in criminal
proceedings regarding public corruption raised a
matter of public concern).
II
To conclude that Butler’s speech as a character
witness in a child custody proceeding—an issue that
plainly implicates the social fabric of a community—
is so personal or private in content that the speech
does not raise a matter of public concern requires a
leap I am unwilling to make. Butler’s speech
implicated a child’s welfare, and I repeat, a child’s
welfare is a matter of interest to the community.
Colorado has unequivocally declared the placement
of children a matter of public concern: “The general
assembly hereby finds and declares that the stability
examination, would not encourage reluctant witnesses
threatened with the loss of their livelihood to testify.

34a
and preservation of the families of this state and the
safety and protection of children are matters of
statewide concern.” Colo. Rev. Stat. § 19-3-100.5(1).
Unlike purely private matters that may generally
be settled at will by the parties, Colorado has
directed courts to make an independent examination
of the best interests of the child in custody matters.
Compare Colo. Rev. Stat. § 14-10-112(2) (permitting
enforcement of conscionable separation agreements,
but
excepting
“the
allocation
of
parental
responsibilities”), with Colo. Rev. Stat. § 14-10124(1.5) (requiring courts to “determine the
allocation of parental responsibilities . . . in
accordance with the best interests of the child giving
paramount consideration to the child’s safety and the
physical, mental, and emotional conditions and
needs”). Colorado courts have thus held that the
state has a “public interest” in “determining what is
in the best interest of the parties and their children
in a dissolution of marriage action.” In re Marriage of
Finer, 893 P.2d 1381, 1388 (Colo. App. 1995).
Similarly, they have explained that child support
determinations
“are
not
purely
private
determinations, but serve a public function.”
Stillman v. State, 87 P.3d 200, 201 (Colo. App. 2003).
The Colorado Supreme Court has also recognized
the doctrine of parens patriae, in which the state
asserts an interest in the protection of children who
cannot care for themselves. E.P. v. Dist. Court, 696
P.2d 254, 258 (Colo. 1985) (“The state as parens
patriae has a continuing responsibility to provide for
the protection of children within its borders.”); see
also Gomes v. Wood, 451 F.3d 1122, 1128 (10th Cir.
2006) (“States have a parens patriae interest in

35a
preserving and promoting children’s welfare.”). In
light of these explicitly declared public interests,
child custody proceedings cannot be treated as
wholly private affairs.
My colleagues fail to appreciate these interests in
assessing the facts before us. Butler’s speech may not
be so easily dismissed as arising from purely private
motivation. See Bailey, 896 F.3d at 1182 (“Merely
because speech concerns an issue of personal
importance does not preclude its treatment as a
public matter.”); Deutsch, 618 F.3d at 1100 (“[T]he
speaker’s having a highly personal motive for a
disclosure does not necessarily mean that the speech
is not a matter of public concern.”). As in Wright v.
Illinois Dep’t of Children & Family Servs., 40 F.3d
1492 (7th Cir. 1994), Butler was not speaking out of
his own interest in obtaining child custody, but
rather truthfully testified to assist the state judiciary
in ensuring the welfare of the child whose custody
was in dispute. Id. at 1505. Butler’s testimony as a
character witness directly implicates the very heart
of the public concern in determining the appropriate
placement for the child.
Further, Butler’s allegation that he would have
been required to testify pursuant to a subpoena had
he not done so willingly refutes the majority’s
assertion that “Butler’s motive for testifying was
personal.” (Majority Op. 23.) As the Seventh Circuit
has recognized, “surely an employee summoned to
give sworn testimony in a judicial proceeding has a
compelling interest in testifying truthfully and the
government employer can have an offsetting interest
in preventing her from doing so only in the rarest of
cases.” Wright, 40 F.3d at 1505 (emphasis omitted).

36a
The majority also emphasizes Butler’s truthful
answer on the hours of the Department’s operations
as constituting the entirety of his testimony.
(Majority Op. 22-23.) But Butler does not argue that
the fact that his testimony included the
Department’s hours of operation rendered the
content of his speech public; instead he claims that
the content of his testimony as a character witness in
the child custody dispute is what makes his
testimony public in nature. Given the authorities
cited
above,
that
proposition
should
be
2
uncontroversial.
III
Finally, I would also hold that Butler’s
constitutional right to testify in child custody judicial
proceedings without incurring employer retaliation
2

Even though this matter is before us on a 12(b)(6) dismissal,
the Department attempts to introduce its motive for demoting
Butler by reference to its written reprimand. That letter tells us
Butler was demoted for causing departmental disharmony
because another employee of the department was a party to the
child custody proceedings at issue. Even if we are to consider
this extraneous claim, an employer’s motive is not relevant to
our public concern analysis, as my colleagues recognize.
(Majority Op. 4 n.2.) Instead, the employer’s motive may be
relevant in deciding whether the employer’s interest in
maintaining workplace harmony is stronger than the speaker’s
interest in exercising their First Amendment rights. See Bailey,
896 F.3d at 1181 (summarizing the third prong in
Garcetti/Pickering as “whether the government’s interests, as
employer, in promoting the efficiency of the public service are
sufficient to outweigh the plaintiff’s free speech interests”). The
majority did not reach this prong of the Garcetti/Pickering test,
although I do not consider that thin motive to overwhelm the
speaker’s constitutional interest.

37a
was clearly established. Generally, “[f]or a right to be
clearly established there must be Tenth Circuit or
Supreme Court precedent close enough on point.”
Mascorro v. Billings, 656 F.3d 1198, 1208 (10th Cir.
2011). But “in an obvious case” more general
“standards can clearly establish the answer, even
without a body of relevant case law.” Brosseau v.
Haugen, 543 U.S. 194, 199 (2004) (quotations
omitted); see also White v. Pauly, 137 S. Ct. 548, 552
(2017) (reaffirming the “obvious case” rule). In the
vernacular, if the constitutional violation is plain, it
is unnecessary to resort to such granular detail as to
require another case involving a “purple cow.”3
Butler’s claims present such an obvious case.
Accordingly, the general standards articulated by the
Supreme Court in Lane clearly establish Butler’s
First Amendment right to testify in a judicial
proceeding free from employer retaliation. In Lane,
the Court expressly held that speech proffered as
testimony in a judicial proceeding “fortif[ies]” the
conclusion that such speech raises a matter of public
concern. 573 U.S. at 241. This Supreme Court
pronouncement clearly establishes a strong
presumption that truthful testimony is not a purely
private matter. And in light of Colorado’s explicit
statements of policy that child custody presents a
matter of public concern, see Part II, supra, it should
be clear to any reasonable official that testimony in

3

Courts in different jurisdictions have adopted various
animal analogies to describe a case with nearly identical facts,
including red cow, spotted dog, spotted horse, and white pony.
See Corn v. City of Lauderdale Lakes, 997 F.2d 1369, 1390 n.2
(11th Cir. 1993).

38a
child custody proceedings does not overcome that
presumption.

39a
APPENDIX B
_________
UNITED STATES DISTRICT COURT,
DISTRICT OF COLORADO
_________
JERUD BUTLER,
Plaintiff,
v.
BOARD OF COUNTY COMMISSIONERS FOR SAN MIGUEL
COUNTY; MIKE HORNER, IN HIS INDIVIDUAL CAPACITY;
AND KRISTL HOWARD, IN HER INDIVIDUAL CAPACITY,
Defendants.
_________
Civil Action No. 17-cv-00577-WYD-GRG
_________
Signed 12/07/2017
_________
Attorneys and Law Firms
Damon Davis, Nicholas W. Mayle, Killian Davis
Richter & Mayle, P.C., Grand Junction, CO, for
Plaintiff.
Jeffrey L. Driscoll, Williams Turner & Holmes, P.C.,
Grand Junction, CO, for Defendants.

ORDER
Wiley Y. Daniel, Senior United States District
Judge

40a
I. INTRODUCTION AND BACKGROUND
THIS MATTER is before the Court on the
Defendants’ Motion to Dismiss Pursuant to Fed. R.
Civ. P. 12(b)(6), filed May 15, 2017. (ECF No. 24). On
June 22, 2017, Plaintiff filed his response in
opposition to the motion, and on July 14, 2017, the
Defendants replied. (ECF Nos. 33 and 36).
Plaintiff Jerud Butler, an employee of the San
Miguel County Road and Bridge Department, filed
suit under 42 U.S.C. § 1983 against the San Miguel
Board of County Commissioners and two San Miguel
County officials, Mike Horner and Kristl Howard.
The Complaint alleges that both Horner and Howard
retaliated against Butler in violation of his
constitutional rights. The Complaint also alleges a
state law claim for violation of the Lawful Activities
Statute against the Board of County Commissioners
(“Board”). The Defendants move to dismiss the
complaint for failure to state a claim upon which
relief can be granted and assert the defense of
qualified immunity. For the reasons stated below, I
grant the motion.
On September 1, 2016, Butler was promoted to a
District Supervisor position with the San Miguel
County, Road and Bridge Department. (Compl. ¶ 14).
On September 7, 2016, Butler testified in a child
custody hearing in Montrose County, Colorado, case
number 2015–DR–202, involving his sister-in-law
and her ex-husband, who is also an employee of the
San Miguel County, Road and Bridge Department.
(Compl. ¶ 15). Butler testified as a character witness
on behalf of his sister-in-law and alleges that had he
not agreed to testify at the hearing, he would have

41a
been required to testify pursuant to a lawful
subpoena. (Compl. ¶¶ 16–17). In response to
questions, Butler testified as to the hours of
operation for the San Miguel County, Road and
Bridge Department among other things. (Compl.
¶ 18). On September 19, 2016, Horner and Howard
conducted an investigation into Butler’s testimony
given at the custody hearing. Following the
investigation, Horner and Howard issued Butler a
Written Reprimand and demotion. (Compl. ¶¶ 22–
23). Butler alleges that he was demoted as a result of
giving truthful testimony at the child custody
hearing, which was not a part of his official duties
but did involve a matter of public concern. (Compl.
¶¶ 24–30).
II. STANDARD OF REVIEW
Defendants seek dismissal of Butler’s claims
pursuant to Fed. R. Civ. P. 12(b)(6). A defendant may
move to dismiss a claim under Rule 12(b)(6) where
the plaintiff has failed “to state a claim upon which
relief can be granted.” Fed. R. Civ. P. 12(b)(6). The
Court’s inquiry is “whether the complaint contains
‘enough facts to state a claim to relief that is
plausible on its face.’ ” Ridge at Red Hawk, LLC v.
Schneider, 493 F.3d 1174, 1177 (10th Cir. 2007)
(quoting Bell Atlantic Corp. v. Twombly, 550 U.S.
544 (2007) ). “To survive a motion to dismiss, a
complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
plausible on its face.’ ” Ashcroft v. Iqbal, 556 U.S.
662, 129 S. Ct. 1937, 1949 (2009) (quoting Twombly,
550 U.S. at 570). When analyzing a 12(b)(6) motion,
“all well-pleaded factual allegations . . . are accepted
as true and viewed in the light most favorable to the

42a
nonmoving party.” Sutton v. Utah State School for
Deaf and Blind, 173 F. 3d 1226, 1236 (10th Cir.
1999). “A 12(b)(6) motion should not be granted
unless it appears beyond doubt that the plaintiff can
prove no set of facts in support of [its] claim which
would entitle it to relief.” Id.
The Tenth Circuit has interpreted “plausibility,”
the term used by the Supreme Court in Twombly, to
“refer to the scope of the allegations in a complaint”
rather than to mean “likely to be true.” Robbins v.
Okla. ex rel. Okla. Dep’t of Human Servs., 519 F.3d
1242, 1247 (10th Cir. 2008). Thus, “if [allegations]
are so general that they encompass a wide swath of
conduct, much of it innocent, then the plaintiffs have
not nudged their claims across the line from
conceivable to plausible.” Id. (internal quotations
omitted). “The allegations must be enough that, if
assumed to be true, the plaintiff plausibly (not just
speculatively) has a claim for relief.” Id. “This
requirement of plausibility serves not only to weed
out claims that do not (in the absence of additional
allegations) have a reasonable prospect of success,
but also to inform the defendants of the actual
grounds of the claim against them.” Id. at 1248.
Additionally, the Tenth Circuit has instructed that
“the degree of specificity necessary to establish
plausibility and fair notice, and therefore the need to
include sufficient factual allegations, depends on
context” and that whether a defendant receives fair
notice “depends on the type of case.” Id.
“The burden is on the plaintiff to frame ‘a
complaint with enough factual matter (taken as true)
to suggest’ that he or she is entitled to relief.”
Robbins v. Oklahoma, 519 F.3d 1242, 1247 (10th Cir.

43a
2008) (quoting Twombly, 555 U.S. at 556). The
ultimate duty of the court is to “determine whether
the complaint sufficiently alleges facts supporting all
the elements necessary to establish an entitlement to
relief under the legal theory proposed.” Forest
Guardians v. Forsgren, 478 F.3d 1149, 1160 (10th
Cir. 2007).
The Defendants attached information to their
motion to dismiss related to the Written Reprimand
issued to Butler by Horner and Howard. (See Mot. to
Dismiss at 3–4). Generally, I consider only the
contents of the complaint when ruling on a Rule
12(b)(6) motion. Gee v. Pacheco, 627 F.3d 1178, 1186
(10th Cir. 2010). Exceptions to this general rule
include: documents incorporated by reference in the
complaint; documents referred to in and central to
the complaint, when no party disputes their
authenticity; and “matters of which a court may take
judicial notice.” Id. (quoting Tellabs, Inc. v. Makor
Issues & Rights, Ltd., 551 U.S. 308, 322 (2007) );
Jacobsen v. Deseret Book Co., 287 F.3d 936, 941 (10th
Cir. 2002); see also GFF Corp. v. Assoc. Wholesale
Grocers, Inc., 130 F.3d 1381, 1384 (10th Cir. 1997)
(stating that “if a plaintiff does not incorporate by
reference or attach a document to its complaint, but
the document is referred to in the complaint and is
central to the plaintiff’s claim, a defendant may
submit an indisputably authentic copy to the court to
be considered on a motion to dismiss.”). Here, Butler
contends that I cannot consider the Written
Reprimand because it is “not central to [his] claims.”
(Resp. at 2). However, I need not decide whether this
information falls into one the exceptions noted above
because I decline to review or consider the Written

44a
Reprimand as part of my analysis under Rule
12(b)(6).
III. ANALYSIS
A. Federal Claim
Defendants urge dismissal of Plaintiff’s First
Amendment claim arguing that the allegations fail to
demonstrate that Butler’s speech is constitutionally
protected because it was not a matter of public
concern and the balancing of interests favors the
Defendants. Defendants also argue that the
individual Defendants are entitled to qualified
immunity because there was no constitutional
violation. In response, Butler argues that because he
alleged sufficient facts to establish that his
testimony was a matter of public concern and that
his speech had no effect on the efficiency of County
operations, the motion to dismiss must be denied.
The Supreme Court in Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982), held that government officials
performing discretionary functions are shielded from
liability for civil damages insofar as their conduct
does not violate clearly established statutory or
constitutional rights of which a reasonable person
should have known. Harlow places a presumption in
favor of immunity of public officials acting in their
individual capacities. Schalk v. Gallemore, 906 F.2d
491, 499 (10th Cir. 1990). “When a defendant asserts
the defense of qualified immunity, the onus is on the
plaintiff to demonstrate (1) that the official violated a
statutory or constitutional right, and (2) that the
right was clearly established at the time of the
challenged conduct.” A.M. v. Holmes, 830 F.3d 1123,

45a
1134 (10th Cir. 2016) (internal citations and
quotations omitted). If the plaintiff fails to establish
either of these prongs, the defendant prevails on its
defense. Id. at 1134–35. The court has “discretion to
decide which of the two prongs should be decided
first in light of the circumstances in the particular
case at hand.” Id. at 1135.
Turning to the first prong of the qualified
immunity analysis in the context of a motion to
dismiss, I analyze “whether the facts that a plaintiff
has alleged . . . make out a violation of a
constitutional right.” Pearson v. Callahan, 555 U.S.
223, 232 (2009). This determination turns on the
substantive law regarding the constitutional right at
issue. See Casey v. City of Fed. Heights, 509 F.3d
1278, 1282–83 (10th Cir. 2007). In the case at hand,
Defendants argue that Butler cannot show that his
First Amendment right to free speech was violated
because his speech is not constitutionally protected
as a matter of law.
The Supreme Court in Pickering v. Bd. of Educ. of
Township High Sch. Dist. 205, 391 U.S. 563, 574
(1968), held that an employee who speaks on issues
of public importance may not be dismissed from
public employment. “[T]he First Amendment protects
a public employee’s right, in certain circumstances,
to speak as a citizen addressing matters of public
concern.” Garcetti v. Ceballos, 547 U.S. 410, 417, 126
S.Ct. 1951, 164 L.Ed.2d 689 (2006) (internal citations
omitted). The interests of public employees on
commenting on matters of public concern must,
however, be balanced with the employer’s interests
in promoting the efficiency of the public services it
performs through its employees. Morris v. City of

46a
Colorado Springs, 666 F.3d 654, 661 (10th Cir. 2012).
To achieve this balance in analyzing public-employee
free speech claims, the court uses the following test
derived from the Supreme Court’s decisions in both
Garcetti and Pickering (“Garcetti–Pickering test”):
“(1) whether the speech was made pursuant to an
official’s duties; (2) whether the speech was on a
matter of public concern; (3) whether the
government’s interests as an employer in promoting
the efficiency of the public service are sufficient to
outweigh the plaintiff’s free speech interests; (4)
whether the protected speech was a motivating
factor in the adverse employment action; and (5)
whether the defendant would have reached the same
employment decision in the absence of the protected
conduct.” Id. (internal citations omitted). The first
three prongs are issues of law to be decided by the
court while the last two prongs are decided by the
factfinder. Id.
Here, as to the first prong of the Garcetti–Pickering
test, the Defendants concede that the speech at issue
was not made pursuant to Butler’s duties as a
District Supervisor with the San Miguel County,
Road and Bridge Department. Rather, Defendants
contend that Butler’s speech did not involve matters
of public concern and that its interests as an
employer outweigh Butler’s free speech rights.
The Supreme Court held that “[s]peech involves
matters of public concern when it can be fairly
considered as relating to any matter of political,
social, or other concern to the community, or when it
is a subject of legitimate news interest; that is, a
subject of general interest and of value and concern
to the public.” Lane v. Franks, 134 S.Ct. 2369, 2380,

47a
189 L.Ed.2d 312 (2014) (internal quotations and
citations omitted). “The inquiry turns on the content,
form, and context of the speech.” Id. (citing Connick
v. Myers, 461 U.S. 138, 147–148, 103 S.Ct. 1684, 75
L.Ed.2d 708 (1983) ). The Lane Court held that
sworn testimony about corruption in a public
program and misuse of state funds “obviously
involves a matter of significant public concern.” Id.
I now turn to the allegations in the Complaint,
which I construe in a light most favorable to Butler.
The Complaint contains limited facts as to what
Butler actually stated at the child custody hearing.
Butler alleges that he testified as a character witness
on behalf of his sister-in-law against her ex-husband
in a child custody hearing. Butler further alleges
that his truthful testimony involved “among other
things, . . . the hours and operation for the San
Miguel County Road and Bridge Department.”
(Compl. ¶ 18). There are no allegations as to any
corruption or misuse of taxpayer funds by the San
Miguel County government nor any information that
Butler’s testimony relates to any matter of political,
social or other concern to the community. Instead,
Butler gave testimony in support of a family member
who was presumably trying to win custody of her
child in a private, domestic relations case. The
factual allegations suggest that Butler’s motive in
giving the testimony was to support his sister-in-law
in a highly personal matter. When “determining
whether speech pertains to a matter of public
concern, the court may consider the motive of the
speaker and whether the speech is calculated to
disclose misconduct or merely deals with personal
disputes and grievances unrelated to the public’s

48a
interest.” Brammer–Hoelter v. Twin Peaks Charter
Academy, 492 F.3d 1192, 1205 (10th Cir. 2007).
While a highly personal motive does not necessarily
mean that the speech is not a matter of public
concern, Butler has not shown that the personal
nature of a family member’s child custody dispute is
the subject of general interest, value, and concern to
the public. Id.
Given Tenth Circuit authority instructing “[c]ourts
[to] construe public concern very narrowly,”
Leverington v. City of Colorado Springs, 643 F.3d
719, 727 (10th Cir. 2011), I find that Butler’s
testimony, given at his sister-in-law’s child custody
hearing, lacks the broader public purpose necessary
to afford it protection under the First Amendment. I
find as a matter of law that Butler’s claim fails on
the second prong of the Garcetti–Pickering test;
Butler’s speech is not constitutionally protected
because it is not a matter of public concern. In light
of this finding, I need not reach the third prong of
the Garcetti–Pickering test. Accordingly, Plaintiff’s
First Claim for Relief is dismissed on this basis
alone.1
1

In the Complaint’s First Claim for Relief, Butler alleges a
claim under 42 U.S.C. § 193 for violations of both the First and
Fourteenth Amendments to the United States Constitution.
(Compl. at 4). The First Amendment applies to the states
through the Fourteenth Amendment. See 44 Liquormart, Inc. v.
Rhode Island, 517 U.S. 484, 489 n. 1, 116 S.Ct. 1495, 134
L.Ed.2d 711 (1996). The Complaint contains no specific
allegations that could support a distinct, plausible Fourteenth
Amendment violation, thus it is properly dismissed under Rule
12(b)(6). Alternatively, to the extent that Butler’s Fourteenth
Amendment claim rests on a theory that he suffered harm
based on the denial of his constitutional right to speak without

49a
B. State Law Claim
The only remaining claim is Butler’s state law
claim brought under the Lawful Activities Statute.
Colo. Rev. Stat. § 24–34–402.5. 28 U.S.C. § 1367(a)
grants supplemental or pendent jurisdiction to
federal district courts over a plaintiff’s state law
claims which arise out of the same transaction or
occurrence as the federal claims. However, a district
court may decline to exercise supplemental
jurisdiction if the district court has dismissed all
claims over which it has original jurisdiction. 28
U.S.C. § 1367(c)(3). “When all federal claims have
been dismissed, the court may, and usually should,
decline to exercise jurisdiction over any remaining
state claims.” Smith v. City of Enid By and Through
Enid City Comm’n, 149 F.3d 1151, 1156 (10th Cir.
1998). Here, because I dismissed Butler’s federal
claim, I decline to exercise supplemental jurisdiction
over his remaining state law claim. Thus, I dismiss it
without prejudice.
IV. CONCLUSION
Based upon the foregoing, it is
ORDERED that the Defendants’ Motion to Dismiss
Pursuant to Fed. R. Civ. P. 12(b)(6) (ECF No. 24) is
GRANTED to the extent that Plaintiff’s First Claim
for Relief, brought under the First and Fourteenth
Amendments, is DISMISSED WITH PREJUDICE,
retaliation, See Paul v. Davis, 424 U.S. 693, 711, 96 S.Ct. 1155,
47 L.Ed.2d 405 (1976), my determination that there was no
First Amendment violation requires a similar conclusion that
the Defendants did not violate Butler’s Fourteenth Amendment
rights.

50a
and Plaintiff’s Second Claim for Relief, brought
under state law, is DISMISSED WITHOUT
PREJUDICE. The Clerk of Court shall close this
case.

51a
APPENDIX C
_________
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________
No. 18-1012
_________
JERUD BUTLER,
Plaintiff-Appellant,
v.
BOARD OF COUNTY COMMISSIONERS FOR SAN MIGUEL
COUNTY, ET AL.,
Defendants-Appellees.
_________
Filed: June 4, 2019
_________
ORDER
_________
Before TYMKOVICH, Chief Judge, BRISCOE,
LUCERO, HARTZ, HOLMES, MATHESON,
BACHARACH, PHILLIPS, McHUGH, MORITZ,
EID, and CARSON, Circuit Judges.
This matter is before the court on the appellant’s
Petition for Rehearing En Banc. We also have a
response from the appellees.
The petition and response were circulated to all
judges of the court who are in regular active service.
A poll was called, and a majority of the judges voted

52a
to deny the request for en banc review. See Fed. R.
App. P. 35(a). Consequently, the petition is denied.
Judges Briscoe, Lucero, Phillips and McHugh voted
to grant en banc rehearing. Judge Lucero has
prepared the attached written dissent from the
denial of en banc rehearing, in which Judges Briscoe,
Phillips and McHugh join.
Entered for the Court,
ELISABETH A. SHUMAKER,
Clerk
/s/ Chris Wolpert
by: Chris Wolpert
Chief Deputy Clerk

53a
18-1012, Butler v. Board of County Commissioners
LUCERO, Circuit Judge, joined by BRISCOE,
PHILLIPS, and McHUGH, Circuit Judges,
dissenting from the denial of en banc rehearing.
Were this a routine case in which en banc
reconsideration had been denied, that of course
would end the matter. But this is not an ordinary
case. The proposition that the custody of a child does
not ultimately involve a matter of public concern is
untenable, particularly so given the statutes and
precedents of the state of Colorado, which expressly
and dispositively announce the public policy of the
state as being directly to the contrary. The further
proposition that local governments may sanction
employees for testifying on such matters in the
public courts and tribunals of this circuit is a
dangerous and highly corrosive precedent—the
adversary system depends on free and open
adjudication in which parties have a right to call
witnesses to testify on their behalf and witnesses, be
they public or private employees, have the right and
duty to testify when called in the open courts of our
circuit. The precedent announced by this panel,
which allows local governments to interfere with
both the rights of litigants and witnesses and in
which the local government has no concern, must not
be allowed to stand.
There is an existing circuit split on the extent to
which the constitution protects sworn testimony in
judicial proceedings. To date, the Court has elected
to resolve the issue by its 2014 decision in Lane v.
Franks, 573 U.S. 228 (2014). That case mandates
that “the form and context of the speech—sworn

54a
testimony in a judicial proceeding— fortify th[e]
conclusion” that such speech involves “matters of
significant public concern.” Id. at 236-37. Lane
protects such speech. The panel acknowledges that
holding in Lane, but concludes that the child custody
proceedings at issue were not “of interest or concern
to the community at large.” Butler v. Bd. of Cty.
Comm’rs for San Miguel Cty., 920 F.3d 651, 664
(10th Cir. 2019). In other words, the panel concludes
that the content of Butler’s speech in child custody
proceedings is so personal in nature as to overwhelm
the presumption that such speech raises a matter of
public concern.1 I respectfully, but most assuredly,

1

Given that the right of free speech under the First
Amendment protects all speech, private and public, it follows,
in Hohfeldian terms, that the government at issue has no right
to interfere with the private speech of its employees.
Correlatively, if the speech be analyzed as a liberty interest, the
government has a duty to refrain from interfering with the
employee’s private speech.
Lane, Garcetti v. Ceballos, 547 U.S. 410 (2006), and Pickering
v. Board of Education, 391 U.S. 563 (1968), are cases in which
the Court considered government employee speech directly or
indirectly relevant to the employer’s governmental functions,
duties, and responsibilities. Those cases did not involve issues
relating to purely private speech spoken in a non-job-related
context. The Court’s jurisprudence in Lane, Garcetti, and
Pickering has mutated over the years. See United States v.
Nat’l Treasury Employees Union, 513 U.S. 454, 466 n.10 (1995);
Rankin v. McPherson, 483 U.S. 378, 380 (1987). The present
case demonstrates and underlines the consequence of any error
in the analysis of the public/private dichotomy because if the
speech is declared to be private, as the panel majority has done
here, that conclusion is being utilized as the rationale and
justification for interference with purely private speech.

55a
dissent from the unwillingness of my en banc
colleagues to correct this error.
I
Jerud Butler was demoted for providing truthful
testimony in a judicial proceeding weeks after his
promotion to the position of District Supervisor for
the San Miguel County Road and Bridge
Department. On his own time, he testified as a
character witness in child custody proceedings
involving his sister-in-law and her ex-husband, a
fellow employee of the Department. Butler testified
in his own capacity during non-working hours and off
the premises of his employer. Had Butler not
testified willingly regarding the character of his
sister-in-law, the record tells us that he would have
been compelled to testify under subpoena.
At the child custody proceeding, Butler testified
truthfully about his sister-in-law’s character. Butler
also testified truthfully about the working hours of
the Department. Following an investigation
conducted by his supervisors just weeks after his
testimony, Butler was demoted and given a written
reprimand for having testified.2

The velocity of the present jurisprudential path needs to be
corrected.
2

These facts are taken from the complaint. Because this case
is before the court at the motion-to-dismiss stage, the plausible
factual allegations of the complaint are accepted as true, and
viewed in the light most favorable to Butler. Straub v. BNSF
Ry. Co., 909 F.3d 1280, 1287 (10th Cir. 2018).

56a
II
“[T]he First Amendment’s primary aim is the full
protection of speech upon issues of public concern.”
Connick v. Myers, 461 U.S. 138, 154 (1983). The
Supreme Court “has frequently reaffirmed that
speech on public issues occupies the highest rung of
the hierarchy of First Amendment values, and is
entitled to special protection.” Id. at 145 (quotation
omitted). To determine whether speech rises to a
matter of public concern, we assess the “content,
form, and context of the speech.” Lane, 573 U.S. at
241 (quotation omitted).
Because the form and context of sworn testimony in
judicial proceedings weigh so strongly in favor of
treating speech as a matter of public concern, we had
never previously held such speech to be not “of
interest or concern to the community at large.”
Butler, 920 F.3d at 664. Whenever testimony in a
judicial proceeding has come before us, we have
declared it to raise a matter of public concern. See
Bailey v. Indep. Sch. Dist. No. 69, 896 F.3d 1176,
1181 (10th Cir. 2018) (character testimony in a
sentencing proceeding implicates public concerns);
Deutsch v. Jordan, 618 F.3d 1093 (10th Cir. 2010)
(testimony responding to a charge of public
corruption is a matter of public concern); Worrell v.
Henry, 219 F.3d 1197 (10th Cir. 2000) (testimony of
an investigator in a criminal trial as a paid expert
raises a matter of public concern). So, too, has the
Supreme Court. See Lane, 573 U.S. at 236-37
(testimony in criminal proceedings regarding public
corruption raises a matter of public concern). Our
sibling circuits, the Third and the Fifth, have
adopted an absolute rule that the First Amendment

57a
protects all testimony in judicial proceedings as
raising a matter of public concern. See Green v.
Philadelphia Hous. Auth., 105 F.3d 882, 887 (3d Cir.
1997); Johnston v. Harris Cty. Flood Control Dist.,
869 F.2d 1565, 1578 (5th Cir. 1989).
Even those circuits that reject the per se rule
recognize the powerful presumption towards treating
sworn testimony in a judicial proceeding as raising a
matter of public concern. See Catletti ex rel. estate of
Catletti v. Rampe, 334 F.3d 225, 230 (2d Cir. 2003)
(“The paramount importance of judicial truthseeking means that truthful trial testimony is almost
always of public concern.” (emphasis added)); Wright
v. Illinois Dep’t of Children & Family Servs., 40 F.3d
1492 (7th Cir. 1994) (rejecting a per se rule, but
explaining “surely an employee summoned to give
sworn testimony in a judicial proceeding has a
compelling interest in testifying truthfully and the
government employer can have an offsetting interest
in preventing her from doing so only in the rarest of
cases” (emphasis omitted)). The panel opinion places
our circuit at odds with this vast body of caselaw,
granting neither absolute protection nor even the
presumption of protection for sworn and truthful
testimony in judicial proceedings.
Whether in the form of an absolute rule or a strong
presumption, the preference for treating testimony in
judicial proceedings as raising a matter of public
concern is well-founded. As the Supreme Court
explained in Lane, “[u]nlike speech in other contexts,
testimony under oath has the formality and gravity
necessary to remind the witness that his or her
statements will be the basis for official governmental
action, action that often affects the rights and

58a
liberties of others.” 573 U.S. at 236-37. The integrity
of our judicial process depends upon the willingness
of witnesses to provide truthful testimony. Green,
105 F.3d at 887 (“The utility of uninhibited
testimony and the integrity of the judicial process
would be damaged if we were to permit unchecked
retaliation for appearance and truthful testimony at
such proceedings.”); Johnston, 869 F.2d at 1578 (goal
of judicial proceedings “is to resolve a dispute by
gathering the fact and arriving at the truth, a goal
sufficiently important to render testimony given in
these contexts speech of public concern” and allowing
employers to retaliate “would chill the employees’
willingness to testify freely and truthfully and would
obstruct the [court’s] path to the truth”).
The precedent established in this case undermines
the ability of the judicial system to arrive at the
truth by forcing public employees to choose between
their economic wellbeing and the obligation to testify
truthfully in, when called, judicial proceedings.
Johnston, 869 F.2d at 1578 (“Those able to risk job
security would suffer state-sponsored retaliation for
speaking the truth before a body entrusted with the
task of discovering the truth. Those unwilling or
unable to risk unemployment would scuttle our
efforts to arrive at the truth.”).
Moreover, the threat of employer retaliation
obliterates not only the judiciary’s ability to uncover
the truth, but also the constitutionally enshrined
procedural protections intended to aid that truthseeking process. Catletti, 334 F.3d at 230 (“[T]he
foundations of federal justice will be undermined if
witnesses are not able to testify freely.” (quotation
omitted)). As a consequence, by allowing employer

59a
retaliation, the panel undermines civic order because
“the act of offering truthful testimony is the
responsibility of every citizen, and the First
Amendment protection associated with fulfilling that
duty of citizenship is not vitiated by one’s status as a
public employee.” Reilly v. City of Atl. City, 532 F.3d
216, 231 (3d Cir. 2008).
It is particularly troubling that the panel chooses
child custody testimony to jettison the strong
presumption towards treating speech in a judicial
proceeding as a matter of public concern. Colorado
courts have expressly declared the state has a “public
interest” in “determining what is in the best interest
of the parties and their children.” In re Marriage of
Finer, 893 P.2d 1381, 1388 (Colo. App. 1995). The
welfare of children in custody disputes plainly
implicates the social fabric of a community, and
should be treated as a matter of public concern. See
Bailey, 896 F.3d at 1181 (“Matters of public concern
are issues of interest to the community, whether for
social, political, or other reasons.” (quotation
omitted)).
Similarly,
the
Colorado
legislature
has
unequivocally established that the placement of
children is a matter of public concern: “The general
assembly hereby finds and declares that the stability
and preservation of the families of this state and the
safety and protection of children are matters of
statewide concern.” Colo. Rev. Stat. § 19-3-100.5(1).
And unlike in private disputes where parties may
settle at will, the Colorado legislature directs courts
in child custody proceedings to conduct independent
examinations of the child’s best interests. Compare
Colo. Rev. Stat. § 14-10-112(2) (permitting

60a
enforcement of conscionable separation agreements,
but
excepting
“the
allocation
of
parental
responsibilities”), with Colo. Rev. Stat. § 14-10124(1.5) (requiring courts to “determine the
allocation of parental responsibilities . . . in
accordance with the best interests of the child giving
paramount consideration to the child’s safety and the
physical, mental, and emotional conditions and
needs”).3
Despite Colorado’s numerous express statements to
the contrary, the panel nonetheless concludes the
strong presumption towards treating testimony in a
judicial proceeding as a matter of public concern is
overcome in the context of character testimony in a
child custody proceeding. The holding in this case
renders hollow not only the First Amendment’s
protections for well over one hundred thousand
public employees in our circuit, but also the right to
call and confront witnesses and fundamental
principles of due process. These constitutional
3

The panel argues the content of Butler’s testimony did not
raise a matter of public concern even if the underlying child
custody proceeding presents such a public concern. I disagree
that testimony on the suitability of a potential guardian
presented by a character witness does not constitute speech on
a public concern in light of Colorado’s express statements to the
contrary regarding the placement of children in custody
proceedings. But even accepting the argument of the panel at
face value places us at odds with other circuits. See Alpha
Energy Savers, Inc. v. Hansen, 381 F.3d 917, 927 (9th Cir.
2004) (“So long as either the public employee’s testimony or the
underlying lawsuit meets the public concern test, the employee
may, in accord with Connick, be afforded constitutional
protection against any retaliation that results.” (emphasis
added)).

61a
protections are the bedrock upon which the sanctity
of the judiciary rests.
For the foregoing reasons, I respectfully dissent
from the denial of en banc review.

